E-Mail Address: 775 H Street, N.E.

Est 9941

briefs@wilsonepes.com Washington, D.C. 20002
wis RING Web Site: Tel (202) 789-0096
aA www.wilsonepes.com Fax (202) 842-4896
No. 20-1149

BRISTOL-MYERS SQUIBB CO., ET AL., PETITIONERS
v.

CLARE E. CONNORS, ATTORNEY GENERAL OF HAWAII

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on March 24, 2021, three (3) copies of the BRIEF OF THE
PHARMACEUTICAL RESEARCH AND MANUFACTURERS OF AMERICA AND THE
CHAMBER OF COMMERCE OF THE UNITED STATES OF AMERICA AS AMICI CURIAE IN
SUPPORT OF PETITIONERS in the above-captioned case were served, as required by U.S.
Supreme Court Rule 29.5(c), on the following:

JOHN PATRICK ELWooD KIMBERLY TSUMOTO GUIDRY

ARNOLD & PORTER KAYE SCHOLER LLP DEPARTMENT OF THE ATTORNEY GENERAL,
601 Massachusetts Avenue, NW STATE OF HI

Washington, DC 20001 425 Queen Street

(202) 942-5992 Honolulu, HI 96813

Counsel for Bristol-Myers Squibb Co., et al. (808) 586-1360
Counsel for Clare E. Connors, in her official
capacity as the Attorney General of the
State of Hawaii

The following email addresses have also been served electronically:

john.elwood@arnoldporter.com
kimberly.t.guidry@hawaii.gov
Douglas.Hallward-Driemeier@ropesgray.com

W:

ROBYN DoRSEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 24th day of March 2021.

 
   

COLIN CASEY HOGAN
Notary PUBLIC
District of Columbia

My commission expires April 14, 2022.

 
